Semiannual Report to Congress
April 1, 2013 – September 30, 2013



                                 November 2013




   Federal Election Commission - Office of Inspector General
          999 E Street, N.W. Suite 940, Washington, D.C. 20463
April 1, 2013 - September 30, 2013




                                 FEDERAL ELECTION COMMISSION
                                 WASHINGTON, D.C. 20463




           OFFICE OF THE CHAIR




                                                               i
     Office of Inspector General Semiannual Report to Congress




ii
April 1, 2013 - September 30, 2013




                                     iii
                          Office of Inspector General Semiannual Report to Congress




     This Page Intentionally Left Blank




iv
April 1, 2013 - September 30, 2013




                                                         Table of Contents



      Executive Summary	                                                                 1
      The Federal Election Commission 	                                                  4
      Office of Inspector General	                                                       5
      OIG Audit Activity	                                                                6
      OIG Audit Follow-up Activity	                                                      8
      OIG Hotline Information	                                                           9
      OIG Investigations	                                                               11
      Additional OIG Activity	                                                          12
      Council of the Inspectors General on Integrity and Efficiency (CIGIE) Activity	   13
      OIG Contacts	                                                                     14
      List of Training, Meetings and Conferences Attended by OIG Staff	                 15
      Reporting Requirements 	                                                          17
      Table I –	 Questioned Cost	                                                       18
      Table II – 	Funds Put To Better Use	                                              19
      Table III – Summary Of Audit And Inspection Reports With	                         20
                  Corrective Actions Outstanding For More Than Six Months
      Appendix A: Peer Review Results	                                                  21
      Appendix B: OIG Fiscal Year 2013 Work Plan	                                       23




                                                                                             v
                     Office of Inspector General Semiannual Report to Congress




This Page Intentionally Left Blank
April 1, 2013 - September 30, 2013




                                                              Executive Summary



 The Inspector General Act of 1978 (the IG Act), as       In April 2013, the OIG issued formal notices of find-
 amended, states that the Inspector General is re-        ings and recommendations (NFRs) to FEC manage-
 sponsible for conducting audits, inspections, investi-   ment; and the final report was released on July 31,
 gations, and recommending policies and procedures        2013. Based on the results of audit work performed,
 that promote economy, efficiency, and effectiveness      the OIG concluded the OHR has significant leader-
 of agency resources and programs, and to prevent         ship and operational weaknesses that are impacting
 fraud, waste, abuse, and mismanagement. The              the office’s ability to provide effective customer ser-
 IG Act also requires the Inspector General to keep       vice and fulfill the day-to-day responsibilities of the
 the Commission and Congress fully and currently          office. OIG notes that subsequent to the completion
 informed about problems and deficiencies in the          of the OIG’s audit fieldwork, and prior to the release
 Commission’s operations and the need for corrective      of the final audit report, management and OHR had
 action.                                                  already begun to implement corrective actions they
                                                          believed would address some of the recommenda-
 The executive summary highlights the most signifi-       tions included in the audit report.
 cant activities of the Federal Election Commission
 (FEC) Office of Inspector General (OIG). Additional      The audit resulted in nine (9) findings and twenty-six
 details pertaining to each OIG activity (i.e. audits,    (26) recommendations to improve the FEC Office of
 hotline, and investigations) can be found in subse-      Human Resources. Management generally agreed
 quent sections of this report. The major accomplish-     with twenty-five (25) and disagreed with one (1)
 ments of the OIG would be impossible to achieve          recommendation. For detailed information pertain-
 without the dedicated and outstanding efforts of the     ing to the Audit of the FEC’s Human Resources
                                                          Office (OIG-12-05), see the section titled OIG Audit
 entire OIG staff.
                                                          Activity (starting on page 6).
 The Audit of the FEC’s Office of Human Resources
 (OHR) was completed during this reporting peri-          For the fifth (5) consecutive year, the Office of
 od. The OHR is a critical component of the agency        Inspector General continued its contract with Leon
 and is responsible for several important functions       Snead & Co. (LSC) to conduct the Federal Election
 including: recruitment and retention of qualified        Commission’s annual financial statement audit in ac-
 staff; employee-employer relations; administration       cordance with generally accepted auditing standards.
 of employee benefits; maintenance and process-           The fiscal year (FY) 2013 financial statement audit is
 ing of personnel records; and training, among other      conducted in four phases: planning; review and eval-
 responsibilities.                                        uation; testing; and reporting. During this semian-
                                                          nual reporting period, LSC completed the planning
 The primary objectives of the audit were to: 1) as-      phase, the review and evaluation phase, and part of
 sess the OHR customer service level and identify         the testing phase.
 areas for improvement, where warranted; 2) assess
 the efficient and effective use of automated pro-        During the review and evaluation phase, LSC re-
 cesses for human resource functions; and 3) assess       viewed the FEC’s compliance with applicable laws
 whether OHR has adequate policies that are up to         and regulations, and followed up with manage-
 date to govern all HR related functions.                 ment regarding the status of the prior year’s audit


                                                                                                                1
                                                             Office of Inspector General Semiannual Report to Congress




findings and recommendations. For the testing            National Endowment for the Humanities (NEH) OIG
phase of the audit, the auditors conducted their         (OIG-13-04), see Appendix A (page 21).
SAS 114: Communication with Those Charged
with Governance meeting with the Chair of the            During this reporting period, the Securities
Commission, and the interim audit testing was also       Exchange Commission (SEC) OIG conducted an
completed by the auditors. The final testing portion     investigative peer review of the FEC OIG. The in-
of the audit is expected to begin October 21, 2013.      vestigative peer review process is a voluntary pro-
For detailed information pertaining to the Audit of      gram for the FEC OIG, and is intended to ensure
the FEC’s Fiscal Year 2013 Financial Statements          quality standards of investigations are followed. On
(OIG-13-02), see the section titled OIG Audit            September 23, 2013, SEC’s Inspector General Carl
Activity (page 7).                                       Hoecker issued the investigative peer review report
                                                         on the FEC OIG’s investigative operations. The re-
During this semiannual reporting period, the             port included a determination that the FEC OIG’s
OIG released the Review of Outstanding                   investigative operations are “in compliance with the
Recommendations as of June 2013 report to the            quality standards established by the CIGIE.” The re-
Commission detailing the follow-up work conducted        port included no recommendations for improvement.
by the OIG and the status of the outstanding OIG
audit and inspection recommendations. The re-            The OIG opened four (4) new hotline complaints
port covered six (6) OIG assignments totaling 114        and three (3) hotline complaints were closed during
outstanding recommendations; the OIG was able to         this reporting period. The OIG had four (4) open ho-
collectively close forty-two (42) outstanding recom-     tline complaints as of the close of the reporting peri-
mendations due to FEC management’s corrective            od, including three (3) that were opened prior to the
actions. In addition, the OIG closed six (6) addition-   beginning of the reporting period. In addition, four
al recommendations in part because management            (4) investigations were open at the end of the re-
disagreed with these recommendations and made            porting period, including one (1) that was opened at
the decision not to apply the resources necessary        the beginning of the reporting period and three (3)
to fully or adequately implement corrective actions.     that were opened during this reporting period. No
For detailed information pertaining to the Office        investigations were closed. For detailed information
of Inspector’s General Review of Outstanding             pertaining to hotline complaints and investigations,
Recommendations as of June 2013 (OIG-13-03),             see the sections titled OIG Hotline Information
see the section titled OIG Audit Follow-up Activity      (starting on page 9) or OIG Investigations (starting
(starting on page 8).                                    on page 11).

Audit organizations conducting audits in accordance      The Inspector General also serves as Vice Chair of
with generally accepted government auditing stan-        the Council of the Inspectors General on Integrity
dards (GAGAS) are required to have an independent        and Efficiency (CIGIE). In this capacity, the IG sup-
peer review every three years. The objective of the      ports the Chair, reviews various documents, attends
peer review program is to ensure an audit organi-        weekly meetings with the Chair and CIGIE execu-
zation’s internal quality control system adequately      tive staff, and provides input into various issues that
provides reasonable assurance that applicable au-        come before CIGIE. The IG is also Chair of the
diting standards, policies, and procedures are being     Inspector General Recommendation Panel.
followed.
                                                         The IG continues to be very involved in the
The FEC OIG completed an audit peer review of the        Executive Council of CIGIE. The Executive Council
National Endowment for the Humanities (NEH) OIG          is composed of the CIGIE’s Chair, Vice Chair, the
on September 30, 2013. The final peer review report      past Vice Chair of the CIGIE, and all Committee
contained one (1) recommendation for NEH OIG to          Chairs. The Executive Council provides guidance
improve their system of quality control. For detailed    on CIGIE initiated projects, the operating plans for
information pertaining to the Peer Review of the         each fiscal year, and the general business of CIGIE.


2
April 1, 2013 - September 30, 2013




 The Council meets monthly to discuss issues that
 will affect CIGIE. For additional information pertain-
 ing to CIGIE activity, see the section titled Council
 of the Inspectors General on Integrity and Efficiency
 (CIGIE) Activity (starting on page 13).




                                                          3
                    Office of Inspector General Semiannual Report to Congress




    The Federal Election Commission



                In 1975, Congress created the Federal Election
                Commission to administer and enforce the Federal
                Election Campaign Act (FECA). The duties of the
                FEC, an independent regulatory agency, are to dis-
                close campaign finance information; enforce the pro-
                visions of the law; and oversee the public funding of
                Presidential elections.

                The Commission consists of six members who are
                appointed by the President and confirmed by the
                Senate. Each member serves a six-year term, and
                two seats are subject to appointment every two
                years. By law, no more than three Commissioners
                can be members of the same political party,
                and at least four votes are required for any offi-
                cial Commission action. The Chairmanship of the
                Commission rotates among the members each year,
                with no member serving as Chairman more than
                once during his or her term.

                As of the end of this reporting period, September
                30, 2013, the FEC had four sitting Commissioners
                – Chair Ellen L. Weintraub; and Commissioners
                Caroline C. Hunter; Matthew S. Petersen and Steven
                T. Walther. On September 23, 2013, the U.S. Senate
                confirmed two new members to the Commission -
                Lee Goodman and Ann Ravel, in late October 2013,
                they were sworn in as Commissioners of the FEC.




4
April 1, 2013 - September 30, 2013




                                     Office of Inspector General.


                                             The Inspector General Act of 1978 (P.L. 100-504),
                                             as amended, states that the Inspector General is
                                             responsible for: 1) conducting and supervising
                                             audits and investigations relating to the Federal
                                             Election Commission’s programs and operations; 2)
                                             detecting and preventing fraud, waste, and abuse
                                             of agency programs and operations while providing
                                             leadership and coordination; 3) recommending
                                             policies designed to promote economy, efficiency,
                                             and effectiveness of the establishment; and 4)
                                             keeping the Commission and Congress fully and
                                             currently informed about problems and deficiencies
                                             in FEC agency programs and operations, and the
                                             need for corrective action.




                                                                                              5
                                                            Office of Inspector General Semiannual Report to Congress




                                                           OIG Audit Activity



Audit of the Federal Election Commission’s             the survey results to help determine the areas for
Human Resources Office                                 audit testing.

Assignment Number:	 OIG-12-05                          Based on the survey conducted and information ob-
Status:	 Released July 2013                            tained during the planning phase of the audit, OIG
                                                       testing focused on several areas, customer service,
http://www.fec.gov/fecig/documents/HRaudit2013.        utilization of automated processes, and the ade-
pdf                                                    quacy of policies and procedures. The OIG’s audit
                                                       testing of customer service included a review of the
The Audit of the FEC’s Office of Human Resources       OHR’s HR on Demand system, a process which was
(OHR) was completed during this reporting peri-        implemented by OHR to track and monitor employee
od. The OHR is a critical component of the agency      inquiries to OHR. Audit testing was completed at the
and is responsible for several important functions     end of March 2013 and the OIG briefed management
including: recruitment and retention of qualified      on the potential audit findings. In April 2013, the OIG
staff; employee-employer relations; administration     issued formal notices of findings and recommenda-
of employee benefits; maintenance and process-         tions (NFRs) to FEC management and the final re-
ing of personnel records; and training, among other    port was released on July 31, 2013.
responsibilities.
                                                       Based on the results of audit work performed, the
The primary objectives of the audit were to: 1) as-    OIG concluded the OHR has significant leadership
sess the OHR customer service level and identify       and operational weaknesses that are impacting the
areas for improvement, where warranted; 2) assess      office’s ability to provide effective customer service
the efficient and effective use of automated pro-      and fulfill the day-to-day responsibilities of the of-
cesses for human resource functions; and 3) assess     fice. The audit also revealed that HR related poli-
whether OHR has adequate policies that are up to       cies are either outdated or do not exist. Further, the
date to govern all HR related functions.               OIG identified another major factor hindering OHR’s
                                                       ability to provide acceptable customer service is the
The OIG held an entrance conference on July 5,         poor planning and implementation of available tools
2012 to discuss the preliminary scope of the audit     and technology to streamline processes and improve
and provide management with an understanding of        operational efficiencies.
the purpose of the audit. As part of the customer
service assessment, the audit included an agency-      OIG notes that subsequent to the completion of the
wide survey of FEC staff to seek feedback on their     OIG’s audit fieldwork, management and OHR had
satisfaction level of service provided by the FEC HR   already begun to implement corrective actions they
Office. The OIG launched the agency-wide survey        believe will address some of the recommendations
on September 14, 2012 and at the conclusion of the     included in the audit report. For example, correc-
survey, the results of the survey were shared with     tive actions were underway to implement a new
OHR (employee names and other identifying infor-       automated customer service tracking system called
mation were not provided to OHR). The OIG utilized     “Remedy,” pilot testing of human resources software
                                                       (Federal Human Resources System) to help auto-
                                                       mate the OHR functions had started, and work on


6
April 1, 2013 - September 30, 2013




 improved policies and procedures was evident. In                   During the review and evaluation phase, LSC re-
 addition, management had temporarily brought on                    viewed the FEC’s compliance with applicable laws
 a Senior Executive Service (SES) candidate from                    and regulations, and followed up with management
 another agency to help the Director of OHR improve                 regarding the status of the prior year’s findings and
 the office.                                                        recommendations. LSC’s review of prior year find-
                                                                    ings concluded that several of the audit recommen-
 The audit resulted in nine (9) findings and twen-                  dations had not been implemented, and as a result,
 ty- six (26) recommendations to improve the FEC                    several notices of findings and recommendations
 Office of Human Resources. Management generally                    were provided to management in regards to the re-
 agreed with twenty-five (25) and disagreed with one                peat findings and any new findings identified. All
 (1) recommendation.                                                of the findings identified as of September 30, 2013
                                                                    were related to the agency’s information technol-
                                                                    ogy controls that can have an impact on financial
                                                                    reporting.

                                                                    For the testing phase of the audit, the auditors con-
 Audit of the FEC’s Fiscal Year 2013 Financial
                                                                    ducted their SAS 114: Communication with Those
 Statements                                                         Charged with Governance meeting with the Chair
 Assignment Number:	 OIG-13-02                                      of the Commission, and the interim audit testing
                                                                    was also completed by the auditors. The SAS 114
 Status:	 In progress                                               meeting was conducted to provide governance with
                                                                    an explanation of LSC’s audit role and responsibili-
 For the fifth (5) consecutive year, the Office of
                                                                    ties, an update regarding the progress of the au-
 Inspector General (OIG) continued its contract with
                                                                    dit, and the audit issues identified and provided to
 Leon Snead & Co. (LSC) to conduct the Federal
                                                                    management.
 Election Commission’s (FEC) fiscal year (FY) 2013
 annual financial statement audit in accordance with                The auditor’s also provided the Chair a detailed
 generally accepted auditing standards. The en-                     overview of the significant IT findings identified dur-
 trance conference was held on April 24, 2013 and                   ing the review and evaluation phase of the audit.
 audit fieldwork commenced on May 13, 2013.                         The final testing portion of the testing phase is ex-
                                                                    pected to begin October 21, 2013.
 The 2013 financial statement audit is conducted
 in four phases: Planning; Review and Evaluation;
 Testing; and Reporting. In addition, the OIG con-
 ducts bi-weekly status meetings with the auditors
 and FEC management to discuss any audit issues
 and provide a status update of the audit process.
 During this semiannual reporting period, LSC com-
 pleted the planning, and review and evaluation
 phases, and part of the testing phase. The planning
 phase consisted of LSC preparing the Prepared by
 Client (PBC) listing1; and briefing the OIG on any
 changes to the audit plan from the prior year audit to
 include new requirements and/or standards for the
 2013 financial statement audit.

 1 List of documentation/reports requested by the Independent
 Public Accounting firm that are prepared and provided by the FEC
 for audit testing and completion of audit steps.



                                                                                                                              7
                                                             Office of Inspector General Semiannual Report to Congress




                                   OIG Audit Follow-up Activity



Office of Inspector’s General Review of                  resources necessary to fully or adequately imple-
Outstanding Recommendations as of June                   ment corrective actions. In accordance with policy,
                                                         the IG can decide to close recommendations or
2013	
                                                         seek resolution from the Commission for recom-
Assignment Number:	 OIG-13-03                            mendations where the OIG and management dis-
                                                         agree. Although these six (6) recommendations
Status:	 Released August 2013
                                                         were closed based on management’s decision to
http://www.fec.gov/fecig/documents/                      not implement the OIG’s recommendations, the OIG
                                                         continues to believe the recommendations would im-
June2013OutstandingRecommendations.pdf
                                                         prove operations; and agency management contin-
During this semiannual reporting period, the             ues to be exposed to the potential risks associated
OIG released the Review of Outstanding                   with the respective findings. Therefore, the OIG con-
Recommendations as of June 2013 report to the            tinues to believe these six (6) recommendations are
Commission detailing the follow-up work conducted        important and if implemented would reduce the risk
by the OIG and the status of the outstanding OIG         of fraud, waste, or abuse. See Table III for a break-
audit and inspection recommendations. The report         down of outstanding recommendations (located on
covered six (6) OIG assignments totaling 114 out-        page 24).
standing recommendations contained in the follow-
ing reports:

    •	 Audit Follow-up Review of the FEC’s Employee
       Transit Benefit Program;
    •	 Audit of the Commission’s Property
       Management Controls;
    •	 Follow-up Audit of Privacy and Data Protection;
    •	 Follow-up Audit of Procurement and Contract
       Management;
    •	 Inspection of the FEC’s Kastle Key Program;
       and
    •	 Quality Assessment Audit of the Audit Division
Based on the follow-up work performed, the OIG
was able to collectively close 42 outstanding rec-
ommendations. In addition, the OIG closed six
(6) additional recommendations from the Property
Audit (2) and the Privacy Audit (4), in part because
management has disagreed with these recommen-
dations and made the decision not to apply the



8
April 1, 2013 - September 30, 2013




                                                OIG Hotline Information



 The OIG hotline exists to enable FEC employees,             The OIG frequently receives reports and allegations
 FEC contractors, and the public to have direct and          which are misdirected complaints that should have
 confidential contact with the OIG. All allegations or       been routed to the Office of Complaints and Legal
 referrals of fraud, waste, abuse, mismanagement,            Administration within the Office of General Counsel
 and misconduct involving FEC employees, contrac-            (OGC), are outside the jurisdiction of the OIG or
 tors, programs, operations, property, or funds re-          the FEC, or are facially unsubstantiated, merit-
 ceived through any means are termed “hotline com-           less or invalid. For example, Section 437g of the
 plaints” per OIG policy. Once a hotline complaint           Federal Election Campaign Act of 1971, as amend-
 has been received, a preliminary inquiry is conduct-        ed (FECA), sets forth strict requirements for report-
 ed to determine whether the hotline complaint will          ing alleged violations of FECA, and FEC regulations
                                                             direct that such complaints be filed directly by the
 be closed with no further action taken, referred to
                                                             complainant and processed through OGC; still, the
 management or another agency, or an investigation
                                                             OIG regularly receives complaints of alleged FECA
 will be initiated.
                                                             violations, many of which are not legally compliant.
                                                             Form responses with information about properly fil-
 The OIG considers many factors when evaluating
                                                             ing a complaint with OGC are sent to complainants
 whether to open an investigation based on a hot-
                                                             alleging FECA violations, as the OIG cannot simply
 line complaint, and acknowledges that every hotline         route FECA complaints to OGC.
 complaint received by the OIG cannot be investi-
 gated and in many cases do not merit investiga-             In other cases of misdirected complaints, a re-
 tion. OIG policy requires that hotline complaints be        sponse is sent to the individual referring him or her
 evaluated on certain criteria, including the merits of      to the proper office or other agency. In some limited
 an allegation, the availability of evidence, and the        instances where a misdirected communication does
 existing priorities, commitments, and resources of          not concern a FECA violation but falls under the
 the OIG. Under this policy, hotline complaints are          purview of another FEC component or government
 classified as either high or low priority complaints.       agency, such as a candidate with a question about
 High priority complaints are investigated and low           filing a report with the FEC, the inquiry may be redi-
 priority complaints are either closed with no action        rected and sent to the appropriate office or agency
                                                             directly from the OIG. Reviewing and, where appro-
 or referred to the appropriate official for possible fur-
                                                             priate, responding to these reports and allegations
 ther review. Hotline evaluation decisions are made
                                                             when aggregated can entail a significant amount of
 by the Chief Investigator, with concurrence from the
                                                             staff time and effort, despite the fact that they are
 Deputy IG.
                                                             not valid hotline complaints.
 During this semiannual reporting period, four (4)           In order to capture and document these hotline
 new hotline complaints were opened and three (3)            contacts, the OIG has created a category for “ho-
 hotline complaints were closed. The OIG had four            tline inquiries” that do not meet the criteria for
 (4) open hotline complaints as of the close of the re-      hotline complaints. Hotline contacts that are mis-
 porting period, including three (3) that were opened        directed complaints, facially unsubstantiated, merit-
 prior to the beginning of the reporting period.             less or invalid, and thus do not meet the criteria for


                                                                                                                  9
                                                          Office of Inspector General Semiannual Report to Congress




classification as a hotline complaint, are categorized
as “hotline inquires.”

For this reporting period, the OIG received four (4)
hotline inquiries. Three (3) hotline inquiries were re-
ferred or redirected to another FEC office, and one
(1) was forwarded to another Federal OIG.




10
April 1, 2013 - September 30, 2013




                                        OIG Investigations



                                     OIG investigations seek out facts related to allega-
                                     tions of wrongdoing. OIG investigations may ad-
                                     dress administrative, civil, and criminal violations of
                                     laws and regulations. The subject of an OIG in-
                                     vestigation can be any agency employee, an FEC
                                     contractor, consultant, or a person or entity involved
                                     in alleged wrongdoing affecting FEC programs and
                                     operations.

                                     As discussed in OIG Hotline Information, all hotline
                                     complaints are evaluated to determine if they warrant
                                     an investigation. If an investigation is opened, the
                                     hotline complaint is closed and merged into the in-
                                     vestigative file. OIG investigations involve a detailed
                                     examination or inquiry into issues brought to our at-
                                     tention by various sources, and may include inter-
                                     views of relevant witnesses and subjects, document
                                     reviews, and computer forensic examinations. At the
                                     conclusion of an OIG investigation, the OIG prepares
                                     a report that sets forth the allegations and an objec-
                                     tive description of the facts developed during the
                                     investigation.

                                     Four (4) investigations were open at the end of the
                                     reporting period, including one (1) that was open at
                                     the beginning of the reporting period and three (3)
                                     that were opened during this reporting period.




                                                                                          11
                                                           Office of Inspector General Semiannual Report to Congress




                                            Additional OIG Activity



Besides conducting audits, inspections, and investi-     •	 The OIG created the 2013 Documentation
gations, the OIG performs, and is involved in an ar-        of Records Destroyed schedule to detail the
ray of additional projects and activities. As required      2013 disposal schedule for OIG records. The
by the Inspector General Act of 1978, as amend-             schedule was submitted to the FEC’s Records
ed, all legislation compiled by the Commission’s            Officer, and during this reporting period, re-
Congressional Affairs Office is reviewed by the             cords were disposed of as well as transferred
Inspector General. In addition, the Inspector               to an off-site records retention center.
General routinely reads all Commission agenda
items.

The Inspector General also reviews and provides
comments, when appropriate, on legislation provid-
ed by the Council of Inspectors General on Integrity
and Efficiency (CIGIE) Legislative Committee.
Listed below are examples of the OIG’s additional
activities:

  •	 The OIG responded to two (2) Congressional
     inquiries – the first to Senators Grassley and
     Coburn, a biannual communication concerning
     any investigations, evaluations or audits that
     were not disclosed to the public by our office
     – there were none. The second to Chairman
     Issa and Ranking Member Cummings of the
     Committee on Oversight and Government
     Reform. The response included information re-
     quested by the committee on outstanding OIG
     audit recommendations.
  •	 OIG’s Annual Work Plan – the OIG sent out an
     agency-wide e-mail seeking input from FEC
     staff regarding any concerns and/or sugges-
     tions for audits. In addition, the OIG held its
     annual brainstorming session to discuss ideas
     for OIG audits and other oversight reviews. As
     a result of the OIG brainstorming session, the
     Annual Work Plan was created. The IG also
     developed an assignment spreadsheet that
     identifies OIG staff, their work assignments,
     and an at-a-glance visual of the estimated
     timeframe for each assignment.



12
April 1, 2013 - September 30, 2013




        Council of the Inspectors General on
      Integrity and Efficiency (CIGIE) Activity


 The Inspector General continues to serve as Vice          comments to the Executive Director of CIGIE on the
 Chair of the CIGIE. In this capacity, the IG sup-         FY 2012 Progress Report to the President; received
 ports the Chair, reviews various documents, attends       and forwarded new IG candidate information to other
 weekly meetings with the Chair and CIGIE execu-           members of the CIGIE panel; met with the Federal
 tive staff, and provides input into various issues that   Co-Chair of the Denali Commission concerning
 come before CIGIE. The IG also prepares for and           IG issues contained in the Dodd-Frank Wall Street
 participates in numerous conference calls with vari-      Reform and Consumer Protection Act.
 ous government officials to discuss a broad range of
 topics affecting CIGIE and the federal government.

 The IG continues to be very involved in the
 Executive Council of the Council of the Inspectors
 General on Integrity and Efficiency (CIGIE). The
 Executive Council is composed of the Chair, Vice
 Chair, the past Vice Chair of the CIGIE, and all
 Committee Chairs. The Executive Council provides
 guidance on CIGIE initiated projects, the operating
 plans for each fiscal year, and the general business
 of CIGIE. The Council meets monthly to discuss is-
 sues that will affect CIGIE.

 The IG also serves as Chair of the Inspector
 General Recommendation Panel which receives
 resumes from those interested in presidentially or
 agency appointed inspector general positions. The
 panel reviews the resumes, along with a question-
 naire all applicants are asked to complete, and for-
 wards those applicants to the White House Office of
 Personnel that would appear to be qualified candi-
 dates for their consideration. The panel also pro-
 vides assistance to those agencies that select their
 own IGs through their competitive process.

 The IG participated and was involved in a variety
 of special projects and issues during the report-
 ing period, to include: two (2) “Lunch with the IG”
 programs at American University; spoke to the
 GAO International Fellows about IGs; two (2) pre-
 sentations on IGs and CIGIE – one to a group of
 journalists from Paul Miller Washington Reporting
 Fellowships and one to Brazilian officials; provided


                                                                                                           13
                                                               Office of Inspector General Semiannual Report to Congress




                                                                                OIG Contacts



     The table below indicates the total amount of contacts received by the Office of Inspector General for the
     past six months – April 1, 2013 through September 30, 2013.

     These contacts were made through various sources such as telephone calls, e-mails, faxes, U.S. mail, and
     personal visits to the OIG.


                                 Total            OIG          No Action        Forwarded
                                Contacts         Action        Necessary        for Action

                                  4,914             22          4,870                 22




14
      April 1, 2013 - September 30, 2013




                                                 List of Training, Meetings
                                                           and Conferences

The chart listed below depicts training, meetings, programs, seminars, and/or conferences attended by the Inspector
General and/or the OIG staff for the period April 1, 2013 – September 30, 2013:

MEETINGS:
                    Host / Sponsor                                           Topic / Subject

                                                             Weekly Chair/Vice Chair Meetings
                                                             Monthly Meetings
                                                             Monthly Executive Council Meetings
         Council of Inspectors General on Integrity          Special Executive Council Meeting
                                    and Efficiency
                                                             Professional Development Committee's Leadership
                                                             Development Subcommittee Meetings
                                                             Media Counsel Meeting
                                                             CIGIE/GAO Annual Financial Statement Conference

     Council of Counsels to the Inspectors General           Monthly Meetings
                                                             Small OIG Working Group Meeting

      Assistant Inspector General for Investigations         Quarterly Meetings

                  Financial Statement Audit Network          Monthly Meetings

                      Federal Audit Executive Council        Bi-monthly Meetings

                                                             Bi-monthy Director’s Meetings
                                                             Finance Committee Meetings
                         Federal Election Commission
                                                             Managers' Meeting
                                                             Administrative Liaison Group Meeting

                    FEC / Office of Inspector General        Bi-weekly Staff Meetings




                                                                                                                      15
                                                             Office of Inspector General Semiannual Report to Congress




TRAINING/CONFERENCES:
               Host / Sponsor                                         Topic / Subject

                                                 CIGIE/GAO Annual Financial Statement Conference
                                                 CIGIE/OPM – HR Evaluator Training
               Council of Inspectors General     IG Conference
                  on Integrity and Efficiency
                                                 Citizens Engagement Seminar
                                                 Lincoln Leadership Training - A Transformational Journey
                                                 from Gettysburg

                                                 Specific Challenges for Performing Oversight / Challenges of
             Federal Audit Executive Council     Smaller OIGs

                Institute of Internal Auditors   Personality Risk Profiles of Procurement Personnel
           Treasury Inspector General for Tax    TeamMate – OIGs Electronic Audit Workpaper Software
                              Administration     (2 sessions)
                      TeamMate User Forum        2013 TeamMate Conference

      Association of Government Accountants      AGA 62nd Annual Professional Development Conference –
                                                 Big Challenges Bigger Thinking
                     FCW Executive Briefings     Detecting and Preventing Wasteful and Improper Payments
                      USDA Graduate School       Introduction to Government Contracting
        Regional Computer Forensics Group        Computer Forensics Training
                                                 Active Client
                                                 Windows 7
                                                 Lotus Notes 8.5.3
                                                 Adobe’
                                                 TeamMate 10
                Federal Election Commission
                                                 IT Security Awareness Training
                                                 No Fear Training
                                                 Labor Management Agreement Training
                                                 Social Security Retirement Planning Seminar
                                                 How to Advance your Federal Career (OPM Webcast)

                                                 Leading the Way – Managing Change in the Workplace
                National Seminars / Skillpath    Public Speaking without Fear
                                                 How to Manage Priorities & Time




 16
April 1, 2013 - September 30, 2013




                                                       Reporting Requirements



  Reporting requirements required by the Inspector General Act of 1978, as amended by the Inspector
  General Act Amendments of 1988 are listed below:

         IG ACT                      DESCRIPTION                                                                PAGE

        Section 4(a)(2)              Review of Legislation                                                        12

        Section 5(a)(1)              Significant Problems, Abuses, and Deficiencies                              None

                                     Recommendations with Respect to Significant Problems, Abuses,
        Section 5(a)(2)                                                                                          None
                                     and Deficiencies
                                     Recommendations Included in Previous Reports on Which Corrective
        Section 5(a)(3)                                                                                           20
                                     Action Has Not Been Completed (Table III)
        Section 5(a)(4)              Matters Referred to Prosecuting Authorities                                 None

        Section 5(a)(5)              Summary of Instances Where Information was Refused                          None

        Section 5(a)(7)              Summary of Significant Reports                                               6

        Section 5(a)(8)              Questioned and Unsupported Costs (Table I)                                   18

        Section 5(a)(9)              Recommendations that Funds be put to Better Use (Table II)                   19

                                     Summary of Audit Reports issued before the start of the Reporting Period
        Section 5(a)(10)                                                                                         N/A
                                     for which no Management Decision has been made
        Section 5(a)(11)             Significant revised Management Decisions                                    N/A

                                     Management Decisions with which the Inspector General is
        Section 5(a)(12)                                                                                         None
                                     in Disagreement




                                                                                                                       17
                                                       Office of Inspector General Semiannual Report to Congress




                                                                                            Table I


INSPECTOR GENERAL ISSUED REPORTS WITH QUESTIONED COSTS
(DOLLAR VALUE IN THOUSANDS)



                                                     Number       Questioned             Unsupported
                                                                    Costs                   Costs

A. For which no management decision has been made      0                  0                        0
   by commencement of the reporting period


B. Which were issued during the reporting period       0                  0                        0


     Sub-Totals (A&B)                                  0                  0                        0


C. For which a management decision was made during     0                  0                        0
   the reporting period


     (i) Dollar value of disallowed costs              0                  0                        0


     (ii) Dollar value of costs not disallowed         0                  0                        0


D. For which no management decision has been made      0                  0                        0
   by the end of the reporting period

E. Reports for which no management decision was        0                  0                        0
   made within six months of issuance




18
April 1, 2013 - September 30, 2013




                                                                                Table II



 INSPECTOR GENERAL ISSUED REPORTS WITH RECOMMENDATIONS THAT
 FUNDS BE PUT TO BETTER USE


                                                                      Number     Dollar Value
                                                                               (In Thousands)
   A. For which no management decision has been made by the             0            0
      commencement of the reporting period

   B. Which were issued during the reporting period                     0            0

   C. For which a management decision was made during the re-           0            0
      porting period
       (i) dollar value of recommendations were agreed to by            0            0
           management

          based on proposed management action                           0            0

          based on proposed legislative action                          0            0

       (ii) dollar value of recommendations that were not agreed to     0            0
            by management
   D. For which no management decision has been made by the             0            0
      end of the reporting period
   E. Reports for which no management decision was made within          0            0
      six months of issuance




                                                                                           19
                                                                            Office of Inspector General Semiannual Report to Congress




                                                                                                            Table III


SUMMARY OF AUDIT REPORTS WITH CORRECTIVE ACTIONS OUTSTANDING FOR
MORE THAN SIX MONTHS
                                                                                           Recommendations
                                                                     Report            Issue
                      Report Title                                                               Number      Closed        Open
                                                                     Number            Date


     Audit Follow-up Review of the FEC’s Employee                  OIG-08-03          07/09          51         43           8
     Transit Benefit Program

     Audit of the Commission’s Property Management                 OIG-09-02          03/10          36         29           7
     Controls

     Federal Election2 Commission 2012 Financial                   OIG-12-03          11/12          32          0          32
     Statement Audit

     2010 Follow-up Audit3 of Procurement and                      OIG-10-02          06/11          29         12          17
     Contract Management

     2010 Follow-up Audit4 of Privacy and Data                     OIG-10-03          03/11          45         15          30
     Protection


     Inspection of the Federal Election Commission’s               OIG-11-02          12/11          15         14           1
     Kastle Key Program


     Quality Assessment Audit of the FEC’s Audit                   OIG-12-01          09/12          11          8           3
     Division

     Inspection of the Federal Election Commission’s
     Disaster Recovery Plan and Continuity of                      OIG-12-06          01/13          30          0          30
     Operations Plans



	                                          Cumulative Total of Outstanding Recommendations	                                128

2 Follow-up on the 20 open recommendations will be a part of the FEC’s 2012 Financial Statement Audit.
3 The 29 open recommendations include 12 of the 15 recommendations from the 2008 Procurement and Contract Management
  Performance Audit, OIG-08-02. Three recommendations were closed from the 2008 audit.
4 The 45 open recommendations include 16 of the 19 recommendations from the 2006 Inspection Report on Personally Identifiable
  Information, OIG-06-04, and 2007 Performance Audit of Privacy and Data Protection, OIG-07-02. In total, three recommendations were
  closed from the 2006 inspection and 2007 audit.

20
April 1, 2013 - September 30, 2013




                                     Appendix A: Peer Review Results


 In accordance with the Dodd-Frank Wall Street Reform and Consumer Protection Act of 2010 (Section 989C of
 P.L. 111-203), which amended Section 5 of the Inspector General Act of 1978, OIGs are required to include in
 their semiannual re¬ports (SAR) to Congress the results of peer reviews of their offices, as well as outstand-
 ing and not fully implemented recommendations from peer reviews the OIG received from another OIG, and
 outstand¬ing and not fully implemented recommendations the OIG made in any peer review it performed for
 an¬other OIG.

 Inspectors General conduct audits in accordance with generally accepted government auditing standards
 (GAGAS). Audit organizations conducting audits in accordance with GAGAS are required to have an indepen-
 dent peer review every three years. The objective of the peer review program is to ensure an audit organiza-
 tion’s internal quality control system adequately provides reasonable assurance that applicable auditing stan-
 dards, policies, and procedures are being followed

 The FEC OIG conducted a peer review of the National Endowment for the Humanties Office of Inspector
 General during this reporting period. The peer review entrance conference was held on June 12, 2013; and
 fieldwork was performed August 1 through 29, 2013. Following the completion of the fieldwork, the FEC peer
 review team held a discussion meeting with the NEH IG and staff on August 29, 2013 to communicate the pre-
 liminary findings noted during the peer review.

 The exit conference was held on September 19, 2013 to discuss the results of the peer review and findings to
 be included in the draft report and letter of comment. The FEC OIG prepared the draft report and comment let-
 ter based on the documentation and evidence reviewed, and information discussed during the exit conference.

 The draft report and comment letter was provided to NEH OIG on September 26, 2013. The NEH OIG provided
 an official written response to the FEC OIG on September 30, 2013. The NEH OIG did not have any suggested
 changes to the report and agreed with the peer review results. The FEC OIG completed and provided the final
 peer review report and comment letter to NEH OIG on September 30, 2013 (OIG-13-04). The final peer review
 report contained one (1) suggested recommendation for NEH OIG to improve their system of quality control.

 The OIG recently passed its first quality assessment review, or peer review, of its investigative program and
 operations. The peer review was conducted by the Securities and Exchange Commission (SEC) OIG. Unlike
 mandatory audit peer reviews, investigative peer reviews for OIGs that do not have statutory law enforcement
 authority, such as the FEC OIG, are strictly voluntary. The FEC OIG has been involved in the voluntary inves-
 tigative peer review program since its inception, as the OIG believes it is important to ensure its investigative
 operations meet the quality standards for internal controls and management procedures established by CIGIE.

 On September 23, 2013, SEC’s Inspector General Carl Hoecker issued the investigative peer review report on
 the FEC OIG’s investigative operations. The report included a determination that the FEC OIG’s investigative
 operations are “in compliance with the quality standards established by the CIGIE.” The report included no rec-
 ommendations for improvement.




                                                                                                                21
                          Office of Inspector General Semiannual Report to Congress




     This Page Intentionally Left Blank




22
April 1, 2013 - September 30, 2013


                                                           Appendix B:




                     Federal Election Commission
                         Office of Inspector General




                                     Fiscal Year 2014
                                        Work Plan



                                      Lynne A. McFarland
                                       Inspector General




                                                                     23
                                                          Office of Inspector General Semiannual Report to Congress




                          TABLE OF CONTENTS

     A Message from the Inspector General-------------------------------------------- 1

     The Federal Election Commission--------------------------------------------------- 3

     Office of Inspector General------------------------------------------------------------ 3

     OIG Strategic Planning----------------------------------------------------------------- 4

     Annual Planning and Methodology Strategies---------------------------------- 5

     OIG 2014 Work Plan-------------------------------------------------------------------- 6

            Audits/Inspections/Reviews-------------------------------------------------- 6

            Investigative Program--------------------------------------------------------- 9

            Special Projects------------------------------------------------------------------ 10

     Attachment

            FEC / OIG Strategic Plan – Fiscal Years 2010 - 2015




24
April 1, 2013 - September 30, 2013




                        FEDERAL ELECTION COMMISSION
                        WASHINGTON, D.C. 20463
                        Office of Inspector General


                                     A Message from the Inspector General


            I am pleased to present to the Commission the Office of Inspector General’s (OIG)
    fiscal year (FY) 2014 Annual Work Plan. This work plan includes a description of audit,
    inspections, investigative and special projects planned for FY 2014. The plan also sets
    forth the OIG’s formal strategy for identifying priority issues and managing its workload
    and resources for FY 2014. Successful execution of this plan will enable the OIG to
    provide the highest quality work products to our stakeholders and to assist the FEC in
    meeting its strategic mission, goals and objectives.

           The OIG substantially completed the work planned for FY 2013 in the audit and
    investigative programs, as well as special projects; some of the assignments are in
    process spanning fiscal years 2013 and 2014. Among the audits completed in FY 2013
    were the Audit of the FEC’s Fiscal Year 2012 Financial Statements, and the Audit of the
    FEC’s Office of Human Resources. In addition to these audits, the OIG also contracted
    with an independent public accounting firm to conduct an inspection of the FEC’s
    disaster recovery plan and continuity of operations plans. These audits and the
    inspection yielded numerous recommendations improve FEC operations. The OIG also
    devoted resources this past FY to audit follow-up with the goal of closing outstanding
    Inspector General recommendations.

           In addition to the accomplishments in the audit program, the investigative
    program accomplished much of the work planned for 2013, to include responding to
    hotline complaints, OIG briefings to new employees, oversight of the OIG’s hotline
    service, among other projects. In 2013, my office also voluntarily participated in a
    relatively new program to have the office’s investigative program peer reviewed. The
    peer review is an independent assessment of the effectiveness of the office’s investigative
    program and is conducted by another OIG. The review provides reasonable assurance on
    whether the office is adhering to applicable investigative standards and policies. I am
    pleased to report that in late September 2013 my office received a “compliant” peer
    review rating, also known as an unqualified clean opinion, from the Securities and
    Exchange Commission OIG.

           In addition to the investigative program, the OIG staff was actively involved in
    several professional working groups during the FY, to include the Council of the
    Inspectors General on Integrity and Efficiency (CIGIE) Professional Development
    Committee, the Inspector General (IG) Candidate Recommendations Panel Committee,
    the IG Council of Counsels, among others. I also assumed the role of Vice Chair of CIGIE
    starting in fiscal year 2013. At the start of FY 2014, the OIG is fully staffed with six
    professional staff members, and therefore, I anticipate the OIG will successfully complete
    the FY 2014 work plan that follows.


                                                                                              1



                                                                                                  25
                                                        Office of Inspector General Semiannual Report to Congress




            The U.S. Federal Election Commission’s (FEC) mission statement is “to prevent
     corruption in the Federal campaign process by administering, enforcing and formulating
     policy with respect to Federal campaign finance statutes.” The OIG is committed to
     ensuring the integrity of FEC programs and operations. The development and continual
     updating of the OIG’s work plan is a critical aspect of accomplishing the OIG’s objectives
     to promote economy and efficiency in FEC programs and to detect and prevent fraud,
     waste and abuse. Effective work planning ensures that audit and investigative resources
     are used effectively and efficiently. I look forward to a successful year of providing the
     highest quality of audit and investigative support and service to our stakeholders.




     Lynne A. McFarland
     Inspector General
     Federal Election Commission

     October 21, 2013




                                                                                                      2




26
April 1, 2013 - September 30, 2013




    The Federal Election Commission
           In 1975, Congress created the Federal Election Commission (FEC) to administer
    and enforce the Federal Election Campaign Act (FECA). The duties of the FEC, an
    independent regulatory agency, are to disclose campaign finance information; enforce the
    provisions of the law; and oversee the public funding of Presidential elections.

            The Commission is made up of six members, who are appointed by the President
    and confirmed by the Senate. Each member serves a six-year term, and two seats are
    subject to appointment every two years. By law, no more than three Commissioners can
    be members of the same political party, and at least four votes are required for any
    official Commission action. The Chairmanship of the Commission rotates among the
    members each year, with no member serving as Chairman more than once during his or
    her term. Currently the FEC has four sitting Commissioners – Chair Ellen L.
    Weintraub; and Commissioners Caroline C. Hunter, Matthew S. Petersen and Steven T.
    Walther. On September 23, 2013, the U.S. Senate confirmed two new members to the
    Commission, Ann Ravel and Lee Goodman. As a result, the agency will soon have a full-
    compliment of six Commissioners serving on the Commission.




    Office of Inspector General
           The Inspector General Act of 1978 (P.L. 100-504), as amended, states that the
    Inspector General is responsible for: 1) conducting and supervising audits and
    investigations relating to the Federal Election Commission’s programs and operations; 2)
    detecting and preventing fraud, waste, and abuse of agency programs and operations
    while providing leadership and coordination; 3) recommending policies designed to
    promote economy, efficiency, and effectiveness of the establishment; and 4) keeping the
    Commission and Congress fully and currently informed about problems and deficiencies
    in FEC agency programs and operations, and the need for corrective action. The OIG
    budget request for FY 2014 was $ 1,110,500, an amount necessary to cover salaries and
    related expenses for six staff members, to include audit contracts and training. Exhibit 1
    on the following page contains the OIG’s organizational chart.




                                                                                             3



                                                                                                 27
                                                               Office of Inspector General Semiannual Report to Congress




     Exhibit 1: FEC - OIG Organizational Chart
                                      Lynne A. McFarland

                                        Inspector General


                    Dorothy Maddox-Holland

                     Special Assistant to the
                       Inspector General



                                                Jon Hatfield

                                          Deputy Inspector
                                             General


       Shellie Purnell-Brown                     Mia Forgy             J. Cameron Thurber

            Senior Auditor                  Senior Auditor           Counsel to the Inspector
                                                                    General/Chief Investigator



     OIG Strategic Planning

     Strategic Plan
            To enhance the effectiveness of the OIG and to ensure effective audit and
     investigative coverage of the Commission’s programs and operations, the OIG has a
     strategic plan that covers the period 2010 through 2015. Three major categories of OIG-
     wide goals and objectives are included in the strategic plan, which are as follows:

        •   OIG Products: To provide products and services that promotes positive change in
            FEC policies, programs, and operations.

        •   OIG Processes: To develop and implement processes, policies, and procedures to
            ensure the most effective and appropriate use of OIG resources in support of our
            people and products.

        •   OIG Staff: To maintain a skilled and motivated work force in an environment
            that fosters accountability, communications, teamwork, and personal and
            professional growth.




                                                                                                             4



28
April 1, 2013 - September 30, 2013




           In addition, strategies and performance measures for each objective are included
    in the strategic plan. For example, an OIG performance measure for audits includes
    using feedback from stakeholder surveys to continually improve the OIG’s audit process.
    At the conclusion of each audit/inspection/review, the OIG distributes a stakeholder
    survey to the program officials to solicit their feedback on the usefulness of the completed
    OIG assignment and their overall satisfaction with the process.

           The OIG strategic plan will continue to evolve and will be reviewed and updated
    as necessary to ensure maximum effectiveness in meeting the changing needs of the
    FEC, consistent with the OIG’s statutory responsibilities. A detailed illustrative version
    of the OIG’s strategic plan can be found as an attachment of this annual work plan.



    Annual Planning and Methodology Strategies

          The planning methodology adopted by the OIG is based on a formal risk
    assessment process. The purpose of the risk assessment process is to better align OIG
    resources to areas that will provide the most value to the FEC. A risk assessment is a
    process to identify, assess, respond to, and report on opportunities and threats that affect
    the achievement of objectives. The OIG also solicits feedback and ideas from
    stakeholders throughout the year. The annual work plan will, of course, require periodic
    updates to reflect changes, such as new priorities, as well as any changes in OIG
    resources.

           In the summer of 2013, the OIG conducted our annual planning process that
    involved a series of OIG planning meetings to discuss the upcoming fiscal year and OIG
    work assignments. In addition to planning based on risk, the OIG planning process is
    also designed to yield work assignments that will identify opportunities for economy,
    efficiency and effectiveness in FEC programs and operations; and detect and prevent
    fraud, waste, abuse and mismanagement. The priority for conducting work assignments
    is based on (1) mandatory legislative requirements; (2) emphasis by the President,
    Congress, and the Commission; (3) a program’s susceptibility to fraud, manipulation, or
    other irregularities; (4) dollar magnitude or resources involved in the proposed area; (5)
    management needs identified through consultation with primary organization heads; (6)
    newness, changed conditions, or sensitivity of an organization; (7) the extent of
    outstanding issues resulting from prior audit coverage or review by the OIG or other
    oversight body; and (8) the adequacy of internal control systems in place for the program
    or other factors.




                                                                                               5




                                                                                                   29
                                                        Office of Inspector General Semiannual Report to Congress




           Based on the results of the OIG’s planning process, the OIG’s annual work plan is
     divided into three primary categories:

        (1) Audits/Inspections/Reviews;
        (2) Investigative Program; and
        (3) Special Projects.


     OIG 2014 Work Plan
     AUDITS/INSPECTIONS/REVIEWS

           The term “audit” is used to describe work performed by auditors in examining
     financial statements, as well as work performed in reviewing compliance with applicable
     laws and regulations, the economy and efficiency of operations, and the effectiveness in
     achieving program results. These audits are prepared in accordance with generally
     accepted government auditing standards and vary in scope and complexity. Inspections
     and reviews are conducted in accordance with quality standards issued by the federal
     Inspector General community.

     For fiscal year 2014, the following assignments are planned:

        1. Audit of the Federal Election Commission’s 2013 and 2014 Financial
           Statements.

           In accordance with the Accountability of Tax Dollars Act of 2002, the FEC is
           required to prepare annual financial statements in accordance with Office of
           Management and Budget (OMB) Circular No. A-136, Financial Reporting
           Requirements. The Chief Financial Officers Act of 1990, as amended, requires the
           FEC Inspector General, or an independent external auditor selected by the IG, to
           audit the agency financial statements.

           We will oversee the fiscal year 2013 audit conducted by the OIG’s independent
           public accounting firm Leon Snead & Company. The OIG is responsible for 1)
           reviewing the auditor’s approach and planning of the audit; 2) evaluating the
           qualifications and independence of the auditors; 3) monitoring the work of the
           auditors; 4) examining audit documents and reports to ensure compliance with
           government auditing standards, and OMB Bulletin No. 07-04, Audit Requirements
           for Federal Financial Statements, as revised; and 5) other procedures the OIG
           deems necessary to oversee the contract and audit.

           The OIG’s contract with Leon Snead & Company ends at the completion of the FY
           2013 audit. Therefore, the OIG will devote resources in late calendar year 2013 to
           solicit and review bids to award a new audit contract for future years.

           Planned period of audit: May 2013 – November 2013;
                                    May 2014 – November 2014.
                                                                                                      6




30
April 1, 2013 - September 30, 2013




        2. Audit of the Federal Election Commission’s Civil Penalties Program.

            The OIG will conduct an audit of the FEC’s Civil Penalties Program. The Federal
            Election Campaign Act (FECA) of 1971, as amended, created the FEC, and also
            established civil penalties for violations of FECA and other statutes within the
            Commission’s jurisdiction. The OIG audit objectives will determine whether the
            program is being administered by the agency in accordance with federal law,
            regulations, and FEC policies and procedures. The OIG will also assess the internal
            controls over the program and provide recommendations to management, if
            warranted.

            Planned period of audit: April – July 2014.


        3. On-Going Audit Follow-up.

            An important responsibility of the OIG is to follow-up on previously issued audit
            reports with outstanding audit recommendations. At the beginning of FY 2014,
            there were numerous outstanding recommendations representing five audits and
            two inspections. On-going audit follow-up during FY 2014 will consist of the
            following responsibilities: (1) review implemented audit recommendations to
            ensure the audit finding has been resolved; (2) review and comment on
            management’s corrective action plans that detail plans for resolving outstanding
            audit recommendations; and (3) conduct regular meetings throughout the FY with
            management to discuss progress to implement audit recommendations.

            Planned period of audit followup: On-going throughout FY 2014.




                                                                                                  7



                                                                                                      31
                                                      Office of Inspector General Semiannual Report to Congress




     4. Audit Peer Review.

       The OIG will be peer reviewed by another OIG during FY 2014 as part of the
       Council of Inspectors General on Integrity and Efficiency’s audit peer review
       program. Government auditing standards require audit organizations to have an
       external review of their quality control system at least every three years.

       Planned period of audit peer review: First half of fiscal year 2014.

     5. Limited Scope Inspections.

       The OIG is planning to conduct two to four limited scope, or short-term,
       inspections of FEC programs during FY 2014. The goal of the short-term
       inspections will be to focus OIG resources on high-risk areas and provide rapid,
       up-to-date information to FEC management and the Commission on the efficiency
       and effectiveness of FEC programs.
          o An inspection related to the Office of Equal Employment Opportunity was
             started in a prior period and is expected to be completed by March 2014.
          o Planning for an inspection on the FEC’s compliance with the Federal
             Managers’ Financial Integrity Act (FMFIA) has begun and the inspection is
             planned for the first quarter of fiscal year 2014.
          o Another inspection is planned for the first half of FY 2014 on the financial
             management services received by the FEC from the General Services
             Administration line of business.
          o Additional inspections on the FEC’s off-site records storage, travel/purchase
             cards, and information technology security may be performed, time
             permitting.

     6. Additional Work Assignments.

       Additional work assignments may be undertaken during FY 2014 based on
       available OIG resources, benefit to the agency, and other relevant factors.
       Priorities may be adjusted to reflect emerging issues during the FY.




                                                                                                   8




32
April 1, 2013 - September 30, 2013




    INVESTIGATIVE PROGRAM

           The OIG’s investigative program is intended to add value to the agency’s programs
    and operations by identifying and investigating allegations of fraud, waste, abuse and
    misconduct leading to criminal, civil, and administrative penalties and recoveries.
    Investigations typically originate as hotline complaints and may result in formal
    investigations if the OIG believes an investigation is warranted. The OIG’s investigative
    program also provides for initiatives designed to monitor specific high-risk areas within
    FEC programs and operations in order to proactively identify vulnerabilities in order to
    prevent fraud, waste and abuse.

    For fiscal year 2014, the following investigative assignments are planned:

        1. Manage Hotline Complaints and Investigation Caseload.

            The OIG will respond to hotline complaints during the FY and report in a timely
            manner to the appropriate officials on the resolution of hotline complaints and
            investigations.

        2. Proactive Investigative Initiatives.

            The OIG will initiate proactive reviews involving high-dollar and high-risk
            programs and operations of the agency. In addition, the OIG has identified several
            agency data systems, such as financial related systems, and will continue to
            pursue direct read-access for OIG personnel as part of the OIG’s proactive
            initiatives to prevent fraud, waste, abuse and misconduct.

        3. Outreach.

            In FY 2011, the OIG conducted a series of OIG briefings with FEC division
            management and staff. The briefings were intended to educate FEC staff about
            the mission and authority of the OIG, and how to report fraud, waste, abuse or
            mismanagement to the OIG. The OIG plans to provide fraud briefings to
            contractor personnel in FY 2014. Discussion and education on fraud will help
            contractors to identify and report suspected fraud and help reduce the number of
            fraud cases. The briefings will also discuss the OIG’s hotline service and how
            contract personnel can report fraud, waste and abuse to the OIG.

            In addition, the OIG will continue the new employee orientation program to meet
            with all new employees to discuss the purpose and mission of the OIG. Lastly, the
            OIG will review and revise, as necessary, the OIG’s FECNet (intranet) site, public
            Web site, OIG brochure, fraud poster, and other outreach initiatives.




                                                                                               9



                                                                                                   33
                                                          Office of Inspector General Semiannual Report to Congress




     SPECIAL PROJECTS

             In addition to the OIG’s audit and investigative responsibilities, the OIG will be
     responsible for numerous additional projects and activities during FY 2014. For
     example, as required by the Inspector General Act of 1978, as amended, all legislation
     compiled by the Commission’s Congressional Affairs Office is reviewed by the Inspector
     General. The Inspector General and staff also participate in several federal Inspectors
     General community working groups on topics related to law, audits, and investigations.
     All of these activities contribute to the success and mission of the OIG. Additional
     special projects will arise throughout the FY and the OIG will prioritize our workload to
     respond to the additional requirements.

     For fiscal year 2014, the following are examples of the special projects and activities
     planned by the OIG:

        1. Participate and Attend Professional Working Group and Other Meetings.

           The Inspector General or OIG staff will regularly attend the following Council of
           the Inspectors General on Integrity and Efficiency (CIGIE) professional working
           group meetings: monthly CIGIE meetings; Executive Council of CIGIE; CIGIE
           Professional Development Committee; IG Candidate Recommendations Panel
           Committee; IG Council of Counsels; Assistant Inspector General for
           Investigations; Federal Audit Executive Council; and Financial Statement Audit
           Network Group.

           In addition to CIGIE professional working group meetings, the Inspector General
           or staff will regularly attend FEC director level meetings, and management and
           FEC town-hall meetings during the FY.

        2. Semiannual and Quarterly Reporting.

           In accordance with the Inspector General Act of 1978, as amended, the OIG will
           prepare and transmit to the Congress semiannual reports on the activities of the
           OIG. Semiannual reports summarize OIG activities during the immediately
           preceding six-month periods ending March 31st and September 30th of each year.
           OIG semiannual reports are also provided to the Commission. The OIG will also
           report on a quarterly basis to the Commission on the activities of the office.

        3. Professional Development and Training.

           The goal of the OIG’s training program is to provide cost effective training to
           increase professional knowledge and proficiency, and ensure staff meet continuing
           professional educational requirements. As a result, the OIG staff will attend
           professional training during the fiscal year to maintain and improve their
           knowledge, skills and abilities.


                                                                                                       10



34
April 1, 2013 - September 30, 2013




                                     11



                                          35
                         Federal Election Commission
                           Office of Inspector General




    Fraud Hotline
    202-694-1015




      or toll free at 1-800-424-9530 (press 0; then dial 1015)
      Fax us at 202-501-8134 or e-mail us at oig@fec.gov
      Visit or write to us at 999 E Street, N.W., Suite 940, Washington DC 20463




Individuals including FEC and FEC contractor employees are encouraged to alert the OIG to
fraud, waste, abuse, and mismanagement of agency programs and operations. Individuals
who contact the OIG can remain anonymous. However, persons who report allegations are encouraged
to provide their contact information in the event additional questions arise as the OIG evaluates the
allegations. Allegations with limited details or merit may be held in abeyance until further specific details
are reported or obtained. Pursuant to the Inspector General Act of 1978, as amended, the Inspector
General will not disclose the identity of an individual who provides information without the consent of that
individual, unless the Inspector General determines that such disclosure is unavoidable during the course
of an investigation. To learn more about the OIG, visit our Website at: http://www.fec.gov/fecig/fecig.shtml

                            Together we can make a difference.
